&

No. 20-739

3n TOjc
Supreme Court of tfje Wmteti ^latest
ISAAC LEVIN,
Petitioner,
V.
KENNETH J. FRANK, BRIAN SEACHRIST, THE CITY OF
BINGHAMTON

Respondents.

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

PETITION FOR REHEARING

Isaac Levin
Petitioner, Pro se
960 Cliffside Avenue
N. Woodmere NY 11581
516-374-0188
Isaaclevin2010@gmail.com

RECEIVED
FEB 2 h 2021
OFFICE OF THE CLERK
SUPREME COURT, U-S.

..
4'

Table of Contents
Page #
Table of Authorities

n

Preamble

1

Petition for Rehearing

2

Conclusion

13

Certification

14

Index to Exhibits
Exhibit “A” - Denial of Certiorari. Dated January 25, 2021

1A

Exhibit “B” - Letter from the Court dated February 5, 2021, Letter
to the Court dated January 27, 2021......................

2B

Exhibit “C” - Petitioner wearing a Kippa

12C

Exhibit “D”

13D

Cortland Supreme Court Decision, Order and Judgment
dated October 5, 2011.......................................................

l

4-

Table of Authorities
Page #
42 U.S.C. §1983

2,12

Toys R Us v. Silva, 89 N.Y.2d 411, 421, 654 NYS2d 100, 105

li

3

PREAMBLE
Pursuant to Rule 44.1 of this Court, Petitioner Isaac Levin (“Petitioner”)
respectfully petitions for a rehearing of the denial of a writ of certiorari to review the
judgment of the United States Court of Appeals for the Second Circuit.
On or about January 25, 2021, this Court denied certiorari on unknown
grounds.

See “Exhibit A page 1A.”

Petitioner subsequently had mailed

correspondence to the Chief Justice and all other Justices of the Court, dated January
27, 2021. See “Exhibit Bpage 2B.” In said correspondence, Petitioner begged this
Court for mercy on the grounds of discrimination and unlawful taking and fear that
his life is now in danger. Absent that, Petitioner will end up in jail.
Petitioner respectfully submits that this Court overlooked key factual and legal
grounds which would provide Petitioner with the relief requested. Petitioner has
demonstrated that this is a case of unlawful taking and discrimination on the part of
a governmental entity and certain employees to unjustly gain control over certain
pieces of property in the City of Binghamton and destroy Petitioner financially and
physically. The lower courts chose to overlook vital and undisputed evidence in favor
of Petitioner.
Petitioner moves this Court to grant this petition for rehearing and consider
his case with merits briefing and oral argument. Pursuant to Supreme Court Rule
44.1, this petition for rehearing is filed within 25 days of this Court’s decision in this
case.

PETITION FOR REHEARING
The original certiorari petition asked this Court to find that the District Court
and the United States Court of Appeals for the Second Circuit misconstrued the
issues of abandonment in the State of New York and grandfathering, which is defined
as the “continuation of land uses that are made nonconforming by a change in
zoning.” Petitioner argued in the original petition that certiorari should be granted
“to once and for all settle the conflicts which exist as to the definition and application
of abandonment to municipality Zoning Codes.” See Petition for Cert., Pg. 8. For
Petitioner it amounts to a lifesaving mechanism because Respondents are currently
seeking to incarcerate Petitioner.
Since the time that certiorari was denied, intervening circumstances have
arisen which create a situation in which Petitioner is now due to go to jail for crimes
he did not commit against humanity, and more specifically against the Respondents
City of Binghamton (“Respondent” or the “City”). As Your Justices maj' be aware
based on Petitioner’s January 27, 2021 correspondence, Petitioner seeks mercy. This
court may ask why Petitioner is requesting mercy, what are the crimes he committed
and whether this court, the Supreme Court of the United States, should intervene, or
just let him die out there.
Petitioner respectfully submits that rehearing is warranted because of crucial
facts and applicable legal standards which were overlooked in the Court’s original
review of the petition for writ of certiorari. Specifically:
•

The Court overlooked that this action was made pursuant to 42 U.S.C. §1983,
and discrimination against a Jewish American. The City is actively
2

discriminating against other classes of minorities,

including African

Americans.
•

The Court overlooked the fact that the case of Toys R Us v. Silva, 89 N.Y.2d
411, 421, 654 NYS2d 100, 105, was a 1996 case decided by the New York Court
of Appeals, the highest court in the state of New York.

•

The Court overlooked the fact that Petitioner demonstrated by new evidence
that the property in question was grandfathered.

Specifically, Petitioner’s

constitutional claims were dismissed on the ground of res judicata. In this
case, res judicata was not applicable to Petitioner’s claims because it is
abundantly clear that the ‘Prior Action’ referenced by the District Court was
all about ‘change of use’, ‘conversion’, ‘modification’ of the first floor. In the
current action, Petitioner established that there was no change of use no
modification and no conversion because the abandonment of the first floor
restored itself to residential, or in conformity with the district, R-3, more than
two units.

Therefore, the summary judgment decision in the Prior Action

lacked merit and should not be construed as a decision on the merits for the
purpose of res judicata or collateral estoppel. The District Court ruled, and
Second Circuit affirmed erroneously in the prior action and thus the order of
summary judgment cannot stand as an adjudication on the merits. Further,
Petitioner could not have discovered the new evidence submitted to the lower
courts, and thus the claims based on this newly discovered evidence could not

3

*

have been brought within the prior action. Accordingly, any theory under res
judicata or collateral estoppel was not applicable.
•

The Court overlooked the fact that the grandfathering principles in the arena
of residential zoning can be a federally contemplated issue.

•

The Court overlooked the deposition testimony of Mr. Chadwick, which clearly
was solely in favor of Petitioner. While the deposition testimony was not part
of the exhibits provided it was part of the exhibits in the lower court. The
deposition testimony is available for review in order to extract the truth.

•

The Court overlooked the fact that the issue of abandonment is one crucial for
the Supreme Court’s review as it is apparent that a split exists in existing state
and federal law which requires clarification from the highest Court. Here,
Petitioner submits that due to the length of time of abandonment of the subject
property, Respondents could not have reestablished the subject property’s nonconforming use as to the first floor being commercial. The evidence clearly
showed that the 1st floor commercial non-conforming use was discontinued. As
a result, Respondents could not have required the reviews and procedures
against the clear stipulations of the ordinance. Erroneously the Second Circuit
found that Petitioner’s argument regarding abandonment was without merit,
in spite the fact that Respondents claims that the issue was never reached.

•

The Court overlooked the overwhelming evidence in the record which
demonstrates that all of the evidence (deposition testimony, Zoning Code, and
grandfathering principles) all favor Petitioner, and not Respondents.

4

•V
V

History of Petitioner’s Involvement in the City of Binghamton.
In 2001, Petitioner’s first daughter attended Binghamton University.
Subsequently she graduated from Hofstra Law School. Petitioner noticed that her
living condition in off-campus housing, was dangerous. In 2003, Petitioner’s second
daughter entered Binghamton University. She alerted Petitioner to the fact that
Binghamton’s off-campus housing was a “dangerous place,” with old and unsafe
housing.
Petitioner embarked on the first run down property, 98 Chapin Street, in
March 2016. In August 2016, students moved in to a totally renewed and renovated
house. The neighbors and the city employees took notice. In fact, Respondents told a
local judge that Petitioner entered the city with $16m.
Seeing how fast Petitioner rented the house, Petitioner took on the next
project, 128 Main Street, a 5-family house, which was on the brink of collapse.
Petitioner was stopped by the City many times but eventually completed the project.
Petitioner ran out of money many times. A hard money lender and a private
lender intervened and provided funding to complete 128 Main Street and purchase
26 Seminary. Locals started to recommend old houses with a desire to sell. An
opportunity came up to purchase 33 Seminary, a property in probate, and 31
Seminary, a property whose owner fell off the roof and lived in New Hampshire.
In March 2009, the City introduced a new ordinance and then disaster struck.
Prior to the introduction of the new ordinance, the permits were eliminated to 26
Seminary and 31 Seminary, and Petitioner was requested to go in front of the boards

5

k-

. to receive new permits. Despite months in front of the boards all applications were
denied. From inception, the locals noticed a strange object on Petitioners head. An
artifact called Kippa in Hebrew and Yarmulka in English. See “Exhibit Cpage 12C.”
It is not different from the Kippa worn by the Pope. One can see the Pope in his
motorcade holding the Kippa from blowing away.

Before the tragic events of

September 11, locals did not know the difference between a Kippa representing a Jew,
a skullcap representing Muslims, and a turban representing Sikhs. Therefore, post9/11, Sikhs were being beaten up for wearing a Turbine, mistaken!}? identified as
Muslims.
In a most recent article, Mr. David Schoen, impeachment attorney for Mr.
Donald J. Trump explained “I just wasn’t sure if it was appropriate, frankly,” Schoen
said after the hearing to a CNN reporter who asked him why did he not wear a kippa.
“I didn’t want to offend anyone...It's just an awkward thing and people stare at it.”
He did not want to awaken the anti-Semites. The article further explained that,
“While it’s true that most Orthodox men regularly wear a hat or a kippa (also called
a yarmulke) at all times, some elect not to wear a head covering at work or in
situations where being identified as a religious Jew could cause harm. [antiSemitism] The article continues, “In public courtrooms in particular, some observant
Jews fear that wearing a kippa could bring extra scrutiny from anti-Semitic jury
members, judges, or in this case, members of the public.”
Binghamton has no shortage of anti-Semites. In fact, Binghamton was the
headquarters to the KICK from its inception in the 1920s.

6

At relevant times,

‘V

tv

Petitioner did not know that. Petitioner wore a Kippa everywhere. When Petitioner
would go into a window store. Billy said to John, “the man with the small hat is here,”
even though Billy knew the full name of Petitioner.
Petitioner has had to fight Respondents’ deception and lies for several years
through numerous Court proceedings.

It appears that when hatred and bigotry

prevails, the truth is lost. This was the case in Dreyfus who was accused of treason.
Hatred and bigotry, years in jail, multiple court activities until he was vindicated.
Discrimination was at the heart of Respondents’ Actions.
To see how the City has discriminated against Jews and minorities, Petitioner
must start at the beginning.
Petitioner is a 69-year-old male, just four 3'ears older than the Chief Justice.
In 2006, Petitioner was only 56 years old. Today, he suffers from three forms of
cancer, among them malignant bone cancer, which has no cure but can be delayed,
prostate cancer, and a cancer which required the removal of a tumor in 2014. See
“Exhibit B page 8B.”
Respondents simultaneously attached both properties Petitioner was working
on. There could not be another explanation. They sought to destroy Petitioner
financially and mentally. Petitioner was not going to allow bank and private
investment to go to waste. It was unacceptable. It was an act of cruelty to take an
individual who did good for the City and seek to destroy him and those who stood
behind him.

7

Respondents engaged in a discriminatory 2-stage unconstitutional taking of
the property at the heart of this action (“26 Seminary” or the “subject property”). The
first stage involved the revocation of the necessary permits and refusal to restore
them. The second stage was when Respondents took actual possession of and
subsequently demolished the subject property.
Petitioner was the controlling member in 26 Seminary LLC, a limited liability
company that he created to purchase the subject property in a multifamily residential
zoning district.

When the LLC purchased the Property in 2007, it contained a

building with empty and abandoned commercial space on the ground floor, two
apartments on the second floor, and one apartment on the third floor, all vacant.
Additionally, the subject property did not have any off-street parking. Petitioner
applied and obtained various permits for a three-family house, [emphasis added]
Respondent elect not to mention it. Respondents’ story is false and a lie. According to
the Respondents it was just sitting there for two years when Petitioner elected to
“convert.” It. Work was done. Each floor was typical, meaning residential threebedroom house. Therefore, there was nothing to convert or modify. Days prior to the
adoption of the new zoning law, the building permits were cancelled or revoked. In
March of 2009, the City of Binghamton adopted Ordinance 009-009, which increased
the amount of off- street parking that certain residential buildings are required to
have. The new parking requirements are triggered "when a building owner sought to
modify the use of an existing structure on the property." (emphasis added). After the
permits were revoked and the new ordinance was introduced, the LLC was required

8

to apply for new permits and variances from Ordinance 009-009's parking
requirements, which the town arbitrarily and unlawfully denied. Respondents were
fully aware that petitioner had no parking. It is no different when an extortionist, at
gun point, demands money knowing that the victim does not have any. On August
25, 2018, Respondents demolished the building on the subject property after it
partially collapsed.

Respondents intentionally demolished the building on the

Sabbath, so that Petitioner would not discover that the building had been demolished
until 9^50 p.m.

It has been a practice of the anti-Semites to hurt the Jewish

population on Saturday knowing that they could not be found or could only be found
for various degrees of abuse.
Petitioner was targeted by employees of Respondents with an ordinance
because he was recognized as Jewish by, among other things, his clothing, his slight
accent, his name and the Kip pa he wore in public. Petitioner has been circling around
the courts for 11 years, unable to find equitable justice. Now he is required to do Jail
time.
A prime example of the discriminatory practices by City officials includes a
Binghamton police lieutenant's lawsuit against the City and the department's top
brass, which brings to light a series of racial discrimination accusations, including
that he was passed over for a promotion based on his ethnicity. The lawsuit by Lt.
Alan Quinones was filed in federal court, under Case No. 3A9-CV-1460, and it argues
that he's been "consistently and systematically the victim of discriminatory treatment
based on his natural origin" since joining the Binghamton Police Department in

9

March 2008 as a patrolman. Quinones is of Hispanic heritage. The lawsuit says
another Binghamton police officer, Christopher Hamlett, approached Quinones in
2018 to seek advice about applying for a detective position. Hamlett, who is black,
was turned down for the job, according to the lawsuit. Further, The city of
Binghamton which in its past housed many generals who liberated in the civil war
african slave, does not have a single american-african working for it. The only African
American working for the City, Mr. Keith Heron, was fired prior to retirement. After
a court battle he was restored and eventually retired just recently.
Here, Petitioner had permits for 31 Seminary and 26 Seminary in his
possession. Respondent elected not to mention it. The permits for both properties
were taken away by the City in early March 2009. Subsequently, a new and more
restrictive zoning ordinance went into effect specifically against Petitioner. Petitioner
was required to comply with the zoning ordinance even though it could not. A similar
case, US. v. the Village of Airmont, highlights similar discrimination, specifically
targeting Orthodox Jews. See “Exhibit B page 10B.” On December 2, 2020, the
United States filed for the third time a complaint in United States v. Village of
Airmont, New York (S.D.N.Y.), alleging that the Village of Airmont violated the
substantial burden, nondiscrimination, and unreasonable limitation provisions of the
Religious Land Use and Institutionalized Persons Act (“RLUIPA”). The complaint in
Airmont alleges that the Village adopted a zoning code that, in violation of the terms
of a prior federal court judgment, eliminated residential places of worship as by right
uses and applied its code in a manner that made it impossible for members of the

10

Orthodox Jewish community to obtain approval for religious schools and home
synagogues. The complaint also alleges that Village implemented an 18-month
moratorium used to prevent the Orthodox Jewish community from advancing
religious zoning applications and interpreted and enforced its zoning code to prevent
Orthodox Jews from using their property to construct Sukkahs, ritual huts to
memorize the miracle of departure from Egypt post 400 years of slavery, required
specifically by the Old Testament and under Orthodox Jewish beliefs, and mikvahs,
ritual baths used for the purpose of ritual immersion to achieve ritual purity. The
complaint seeks injunctive and declaratory relief. See Case No. 7-20'CV-l0121,
United States District Court for the Southern District ofNew York.
It clearly appears now that the creation of new zoning code is a practice by
municipalities to eliminate Jews from being able to build and exercise their religious
belief. Much like the injured parties in Airmont, Petitioner here has been injured as
the result of nothing short of Religious animus. Respondents have unconstitutionally
attempted to apply the new zoning ordinance to Petitioner and ultimate^ ended up
demolishing the property and subjecting Petitioner to jail time and fines.
This Court has the power, by granting rehearing and deciding this case on the
merits, to put an end to Petitioner’s 11-year battle against this injustice. The Court
will also send a clear message that the United States will not tolerate religious
discrimination, prejudice and hatred against any minority and specifically against
Jews.

11

Petitioner is Entitled to Full Hearing on his Section 1983 Claims.
Petitioner initiated his legal action against Respondents via the filing of an
article 78 petition with Cortland County Supreme Court. The Supreme Court Judge
read the pleadings and filings for 11 months and concluded that, “In determining
whether persons are similarly situated, “[t]he test is whether a prudent person,
looking objectively at the incident would think them roughly equivalent. Exact
correlation is neither likely nor necessary.” The Court further stated: “The person
must be singled out for an impermissible motive not related to legitimate
governmental objectives, which include personal or political gains, or retaliation for
the exercise of constitutional rights.” Additionally, the Cortland Supreme Court
found that “Here the proposed second amended petition contains sufficient
allegations to plea a prima facie claim of selective enforcement. It contains facts
which, if proven, would allow a conclusion that the properties located at 46 Seminary
Avenue and 63 Front Street are, at least “roughly equivalent” to petitioner’s
properties at 26 Seminary and 31 Seminary Avenue and that their owners received
permits or variances denied to petitioners. In addition, petitioners allege that they
were treated differently than others similarly situated because they exercised their
constitutional rights [allegation that Planning commission member Young retaliated
against petitioner for personal reasons]. The court has jurisdiction over the claim for
damages brought pursuant to 42 USC §1983.”

See “Exhibit D page 17-18D.”

However, the federal courts who heard this case then proceeded to immediately
dismiss the claims. Rehearing is thus warranted to provide Petitioner a full Court
12

review on the merits and to send a message to all others that religious discrimination
in America based on color, race, religion, national origin would not be tolerated. This
is the pledge of the United States of America.
CONCLUSION
For the reasons set forth in this Petition, Isaac Levin respectfully requests this
Honorable Court grant rehearing and his Petition for a Writ of Certiorari.

Dated: February 18, 2021.
Respectfully submifa^ed,

Isaac Levin
Pro Se Petitioner
960 Cliffside Avenue
N. Woodmere, NY 11581
Isaaclevin2010@gmail.com
1.516.374.0188

13

*.

CERTIFICATION
I hereby certify that this petition for rehearing is presented in good faith and
not for delay, and that it is restricted to the grounds specified in Supreme Court Rule
44.2.

Isaac Levin
Pro Se Petitioner
960 Cliffside Avenue
N. Woodmere, NY 11581
Isaaclevin2010@gmail.com
1.516.374.0188

14

Additional material
from this filing is
available in the
Clerk's Office.

